No. 20-695

 

 

IN THE

Supreme Court of the United States

DEREK PIERSING, On Behalf of Himself and All
Others Similarly Situated,

Petitioner,
Vv.

DOMINO’S PIZZA FRANCHISING LLC; DoMINO’s PIZZA
MASTER ISSUER LLC; DoMINO’s P1zZA LLC; and
DOMINO'S P1ZzA, INC.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

BRIEF FOR THE RESPONDENTS IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,891 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 21, 2020.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
